Hirsh Singh
Filing as Pro Se
P.O. Box 407 Linwood, NJ 08221
9 Wexford Lane Linwood, NJ 08221
(609) 335-5289
info@hirshsingh.com

HIRSH SINGH Pro Se.,
Plaintiffs,

: UNITED STATES SUPREME COURT

v.

No. 20-599

PHILIP D. MURPHY, in his official
capacity as Governor of New Jersey,
TAHESHA WAY, in her official
capacity as Secretary of
State of New Jersey,

CERTIFICATE OF SERVICE
January 30, 2021

Defendants.

I, Hirsh Singh, swear and say under penalty of perjury:
1. That I am over the age of 18 years and with mailing address of 9 Wexford Lane, Linwood, NJ
08221. 2. On the undersigned date, I served the parties in the above captioned matter with the Hirsh
Singh On A Reply To Brief In Opposition To The Supreme Court Of New Jersey, by providing
electronic Service to the following electronic addresses:
New Jersey Governor Philip D. Murphy
Office of Governor PO Box 001
Trenton, NJ 08625
Mr.Beau Wilson (Counsel for Respondent)

Beau.Wilson@law.njoag.gov
NJAG.ElectronicService.CivilMatters@law.njoag.gov

New Jersey Secretary of State Tahesha Way
NJ Department of State
PO Box 300
Trenton, NJ 08625
Mr.Beau Wilson (Counsel for Respondent)
Beau.Wilson@law.njoag.gov
NJAG.ElectronicService.CivilMatters@law.njoag.gov

Supreme Court:
SunremeEmergent.mbx(nicourts.gov
Superior Court, Appellate Division:
AppellateEmergent.Mailboxnicourts.gov
Superior Court:
Clerk of Morris County Superior Court:
naomi.centrella(&njcourts.gov
Secretary of Judge Minkowitz:
Fran.Gardanonjcourts.dov

Additional Respondents:
"JOEBELL@BSFLAWGROUP.COM" JOEBELL@bsflawgroup.com
"howeslegal@gmail.com" howesleoalgmail.com
"Susan.Scott@law.njoag.gov" Susan.ScotMlaw.njoag.gov
"Nicole.Adams@law.njoag.gov" Nicole.Adamsalaw.nioaq.clov

I, Hirsh Singh, Pro Se. do certify under penalty of perjury that the foregoing is true and correct. I
caused a true and correct copy of (1) REPLY TO BRIEF IN OPPOSITION ; (2) WAIVER OF 14DAY WAITING PERIOD PER RULE 15.5 ; (3) CERTIFICATE OF WORD COUNT; and (4)
APPENDIX, to be filed via Mail via paper and electronic filing with the Clerk of the US Supreme
Court with (5) CERTIFICATE OF SERVICE to Respondents Counsel, and lower courts.
Dated: January 30th , 2021

Respectfully submitted,
By: s/

Hirsh Singh
HIRSH SINGH, PRO. SE.

